3

.

No.

IN THE
SUPREME COURT OF THE UNITED STATES

rwnTRiiq nFR.111AM

MOSS.

— PETITIONER

(Your Name)

VS.
I, n R T DflUTR. DIRECT □ R , T DC 3— RESPONDENT(S)

PROOF OF SERVICE

, do swear or declare that on this date,
20JLQ-, as required by Supreme Court Rule 29 I have •
nr.TDRFR 15
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding , or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

F '< ft T R U 5 DER.lUflN M0S5

The names and addresses of those served are as follows:
CftSEY SOLOMON, ASSISTANT ATTORNEY GENERAL, CRIMINAL APPEALS DIVISION, _
p. n

Rn x

1

AUSTIN

TFXflR

7B711-254B

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

flrtnhpr

1 R ;

, 2020_

(Signature)

